 Audit of NARA’s Internal
    Control Program


OIG Audit Report No. 10-19



   September 29, 2010
Table of Contents


Executive Summary ........................................................................................ 3

Background ..................................................................................................... 5

Objectives, Scope, Methodology .................................................................... 6

Audit Results................................................................................................... 7

Appendix A – OIG Review of NARA’s FY 2009 Statement of Assurance 11

Appendix B – Acronyms and Abbreviations ................................................ 16

Appendix C – Management’s Response to the Report ................................. 17

Appendix D – Report Distribution List ........................................................ 18
                                                                     OIG Audit Report No. 10-19


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) performed an audit of NARA’s Internal Control Program. Annually, the OIG
performs a review to ensure NARA managers continuously monitor and improve the
effectiveness of internal controls associated with their programs. This continuous
monitoring, in conjunction with other periodic evaluations, provides the basis for the
agency head’s annual assessment of, and report on, internal controls as required by the
Federal Managers’ Financial Integrity Act (FMFIA) of 1982 (Public Law 97-255).

The objectives of the audit were to (1) evaluate NARA’s compliance with guidance
contained in FMFIA and the Office of Management and Budget’s (OMB) Circular A-
123, Management’s Responsibility for Internal Control (the Circular), and the adequacy
of the agency’s assurance statement and (2) identify and evaluate the system of internal
controls using the Government Accountability Office’s (GAO), Standards for Internal
Control in the Federal Government (the Standards), for assessing and evaluating internal
controls. Specifically, we (1) examined management’s responsibilities for internal
control in Federal agencies as outlined in the Circular, and (2) reviewed the status of open
recommendations made in prior year reports. Also, to facilitate the submission of
NARA’s annual assurance statement, we performed a preliminary review of the agency
assurance statement in October 2009 (Appendix A).

Our initial assessment of the agency’s FY 2009 assurance statement, as conveyed in our
October 20, 2009 memorandum (Appendix A), was NARA’s statement underreported
material risk associated with Preservation and Processing programs and did not
accurately reflect the breadth of risks in NARA’s Information Security Program. This is
the same conclusion we reached and conveyed to the agency in our assessments of their
FY 2007 and FY 2008 assurance statements.

Our audit revealed at the end of the FMFIA reporting period, September 30, 2009,
NARA did not fully comply with the requirements of the Circular as a formalized internal
control program did not exist. 1 Since then NARA has made progress, and should be
commended for establishing an implementation plan for a comprehensive internal control
program. However, while the plan was established, much more remains to be done on
the internal control program. Also, management has not closed the open audit
recommendations from the last two years’ audit reports. As a result of these conditions,
NARA continues to exhibit weaknesses in internal controls first identified in FY 2007
that degrade the effectiveness of internal controls and the accuracy of office assurance
statements.




1
 Although NARA is excluded from Appendix A of the Circular, the A-123 requirements in the Circular are
for all agencies and require management to develop and maintain effective internal controls.
                                           Page 3
                        National Archives and Records Administration
                                                        OIG Audit Report No. 10-19


We are making two recommendations which we believe, once implemented, will address
weaknesses cited in this review.




                                      Page 4
                   National Archives and Records Administration
                                                                      OIG Audit Report No. 10-19


Background

The Federal Managers’ Financial Integrity Act (FMFIA), Public Law 97-255, requires
each agency to establish controls that reasonably ensure: (1) obligations and costs comply
with applicable law, (2) assets are safeguarded against waste, loss, unauthorized use or
misappropriation, and (3) revenues and expenditures are properly recorded and accounted
for. In addition, the agency head must annually evaluate and report on the systems of
internal accounting and administrative control.

The Office of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control (the Circular), defines management’s responsibility
for internal control in Federal agencies. It provides guidance to Federal managers on
improving the accountability and effectiveness of Federal programs and operations by
establishing, assessing, correcting, and reporting on internal control. OMB revised the
Circular in response to the Sarbanes-Oxley Act, effective in fiscal year 2006. This
revision strengthened the requirements for management’s assessment of internal control
over financial reporting. The new requirements apply only to the 24 Chief Financial
Officer Act agencies, thus exempting NARA from reporting pursuant to Section 4 of the
FMFIA. However, NARA is still required to report on internal controls pursuant to
Section 2 of FMFIA.

NARA issued Directive 114, Management Controls, to help managers implement the
requirements of the Circular. NARA 114 defines responsibilities; defines the types of
reviews that could be considered internal control assessments; identifies documentation
that must be maintained in support of an internal control evaluation, and; addresses the
development and maintenance of management control plans. Among the responsibilities
defined by this guidance, Office Heads are required to identify and analyze risk, and the
Policy and Planning Staff (NPOL) are required to provide oversight, guidance, and
assistance to NARA offices concerning implementation of the NARA internal control
program.

Assurance statements and information relating to FMFIA Section 2, Section 4 (from
which NARA is exempt), and internal control over financial reporting should be provided
in a single FMFIA report section of the annual Performance and Accountability Report
(PAR) labeled “Management Assurances.” The section should include the annual
assurance statement, summary of material weaknesses and non-conformances, and
summary of corrective action plans. Furthermore, FMFIA requires the Archivist to
annually submit to the President and Congress (1) a statement on whether there is
reasonable assurance that the agency’s controls are achieving their intended objectives,
and (2) a report on material weaknesses in the agency’s controls. 2


2
  NARA publishes the assurance statement in the annual PAR and no longer sends a separate statement to
the President and Congress.
                                           Page 5
                        National Archives and Records Administration
                                                              OIG Audit Report No. 10-19


Objectives, Scope, Methodology

The objectives of the audit were to (1) evaluate NARA’s compliance with guidance
contained in FMFIA and OMB A-123 and the adequacy of the agency’s assurance
statement and (2) identify and evaluate the system of internal controls using GAO
guidance for assessing and evaluating internal controls. Specifically, we (1) examined
management’s responsibilities for internal control in Federal agencies as outlined in the
Circular, and (2) reviewed the status of open recommendations made in prior year
reports. Also, to facilitate the submission of NARA’s annual assurance statement, we
performed a preliminary review of the agency assurance statement in October 2009
(Appendix A).

This audit was conducted in accordance with generally accepted government auditing
standards between September 2009 and September 2010. These standards require we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                        Page 6
                     National Archives and Records Administration
                                                              OIG Audit Report No. 10-19


Audit Results

1. Lack of a formal internal control program.
Our review revealed NARA has not fully complied with the requirements of the Circular
as there was no formalized internal control program. This condition exists because
management has in the past focused on preparing assurance statements and management
control plans, rather than implementing all of the standards for internal control. Internal
controls are an integral component of an organization’s management, and without it there
is no reasonable assurance the following objectives were achieved: (1) effectiveness and
efficiency of operations, (2) reliability of financial reporting, and (3) compliance with
applicable laws and regulations. Also, the lack of a properly maintained internal control
environment commensurate with NARA’s activities can create issues, including
unreliable financial reporting, unauthorized use or misappropriation of funds, and
opportunities for fraud, waste, and abuse.

The Circular requires management to develop and maintain effective internal controls.
Effective internal controls provide assurance significant weaknesses in the design or
operation of internal control, that could adversely affect the agency’s ability to meet its
objectives, would be prevented or detected in a timely manner. The U.S. Government
Accountability Office’s (GAO’s), Standards for Internal Control in the Federal
Government (the Standards) outlines the five standards for internal control as (1) control
environment, (2) risk assessment, (3) control activities, (4) information and
communication, and (5) monitoring. The Standards define the minimum level of quality
acceptable for internal controls in the federal government and provide the basis against
which internal controls are to be evaluated. Each standard is important, and all have to
function together to make an effective control structure. All of the standards need to be
implemented to have an effective internal control program, and therefore, NARA cannot
continue to piecemeal the program as they have done in the past. Internal controls are
likely to function well if management believes those controls are important and
communicates that view to employees at all levels. If employees don’t think
management is committed to putting an internal control environment in place, then
internal controls will be regarded as “red tape” and a waste of time.

We noted NARA will not be in full compliance with the Circular until it identifies critical
functions, control and monitoring activities, and develops a formal risk management
process. In the past management had not shown a comprehensive understanding of risk
assessments and therefore did not adequately apply risk assessment as a component of
their internal control planning and testing. Furthermore, the agency did not have the
structure in place to support adequate, agency-wide/strategic risk identification and risk
mitigation strategies.

At of the end of the FMFIA reporting period, September 30, 2009, NARA did not have
an adequate internal control program. Since then NARA has made progress in
                                         Page 7
                      National Archives and Records Administration
                                                              OIG Audit Report No. 10-19


implementing a program. NPOL is leading the efforts in completing an implementation
plan to address the areas NARA is not compliant with for the Circular. The plan
identifies key activities, milestones, deliverables, and target dates for implementation.
The initial phase of the implementation plan is to establish a baseline which will serve as
the initial framework around which the internal control program will be structured. The
initial baseline includes identifying the agency’s existing critical functions, controls,
risks, and monitoring activities. It also includes creating standard risk assessments. The
framework will be reflected in the initial build out of a system NPOL would like to
procure to automate the internal control program and related processes. NPOL does not
expect the system to be fully functional until FY 2012.

The initial phase of the implementation plan will be considered complete once (1) the
program baseline has been established and is reflected in the internal control automated
system, (2) standard risk assessment questionnaires have been developed and
incorporated into the system, and (3) accountable officials, function owners (or line of
business owners), and senior managers are trained. After the initial phase, the annual
internal control review will consist of review and revision of critical functions,
preparation of risk assessments, and detailed control reviews based on the results of the
risk assessments.

The OIG believes management is moving in the right direction in complying with the
Circular. We will continue to track their efforts in the future.

Recommendation 1

The Archivist of the United States should:

a) Demonstrate a commitment to the internal control program by establishing
   centralized responsibility within NARA’s existing organizational structure or within
   the proposed Performance & Accountability Office (as indicated in the Proposed
   NARA Organization Report from the Archivist’s Task Force on Agency
   Transformation).

b) Formalize the Internal Control program to include the five standards for internal
   control: (1) control environment, (2) risk assessment, (3) control activities,
   (4) information and communication, and (5) monitoring.

c) Consider establishing a Senior Management Council to provide oversight and
   additional accountability for the Internal Control Program.

Management Response

Management concurred with recommendation.




                                         Page 8
                      National Archives and Records Administration
                                                                 OIG Audit Report No. 10-19


2. Prior year audit recommendations remain open.
Our review found recommendations for corrective actions contained in our FY 2007 3 and
FY 2008 4 assurance statement audits have not been implemented. These
recommendations were aimed at both addressing non-compliance with provisions of
NARA 114 and the Circular, and modifying existing management control plans which
too narrowly defined/identified “critical functions” to allow for proper testing and
evaluation of controls. This condition exists because for the last two years NPOL
planned to revise NARA Directive 114, Management Controls, which NARA’s
Management Control Liaison believed upon implementation by the program offices,
would be the first step in addressing the open recommendations from the prior two years.
At the end of fieldwork, the directive had not been revised by NPOL.

Our recommendations for the last two years were as follows:

    •   the Archivist should ensure NARA’s policy on internal controls (such as NARA
        114) be revised to specifically address the process by which findings are
        evaluated and categorized; criteria used in the decision making process, and;
        documentation necessary to support such conclusions;
    •   the Assistant Archivist for Administrative Services should ensure Annual
        Information Security Self Inspection results are reviewed in a timely manner,
        instances of non-compliance are identified, and corrective actions are monitored;
        and self inspections are reviewed and documented in accordance with guidance
        concerning self-assessments contained in NARA 114. If a formal process as
        referred to by the Information Security Officer is not completed, alternate means
        of reviewing the checklists should be developed.
    •   the Assistant Archivist for Regional Records Services should ensure all program
        findings, regardless of whether they are considered major or minor, are tracked to
        resolution and supported by adequate documentation;
    •   NPOL work with offices in general, and management control liaisons in
        particular, to:
            o stress the importance of performing internal control assessments of critical
                areas in accordance with management control plans and NARA 114;
            o ensure the results of the assessments are included in the assurance
                statements, and;
            o revise, as necessary, the lists of “critical functions” to be reviewed.

The Circular requires the agency and individual managers to take systematic and
proactive measures to assess the adequacy of internal controls in Federal programs and
operations, identify needed improvements, take corresponding corrective action, and
report annually on internal controls in order to be accountable for their area of control.

3
  OIG Audit Report No, 08-06, Evaluation of NARA’s FY 2007 Management Control Program (March 7,
2008). The recommendations in 08-06 were closed and carried forward to OIG Report No. 09-14.
4
  OIG Audit Report No. 09-14, Evaluation of NARA’s FY 2008 Management Control Program (August 28,
2009).
                                          Page 9
                       National Archives and Records Administration
                                                            OIG Audit Report No. 10-19


NARA Directive 114 provides guidance for establishing, assessing, correcting, and
reporting on internal controls. Both documents convey the elements necessary for
conducting and documenting sufficient internal control reviews.

Failing to consistently review critical areas/programs weakens management
accountability and decreases the likelihood problems will be identified and program risks
minimized. Furthermore, it promotes a false sense of assurance about the level of
program or function oversight provided by management and could result in an agency
assurance statement which inaccurately conveys risk.

Recommendation 2

The Archivist, Assistant Archivist for Administrative Services, Assistant Archivist for
Regional Records Services, and Director of Policy and Planning should ensure
recommendations from OIG Report No. 09-14 are implemented and previously identified
weaknesses are corrected.

Management Response

Management concurred with recommendation.




                                        Page 10
                     National Archives and Records Administration
                                                OIG Audit Report No. 10-19


Appendix A – OIG Review of NARA’s FY 2009
Statement of Assurance




                              Page 11
           National Archives and Records Administration
                                     OIG Audit Report No. 10-19




                   Page 12
National Archives and Records Administration
                                     OIG Audit Report No. 10-19




                   Page 13
National Archives and Records Administration
                                     OIG Audit Report No. 10-19




                   Page 14
National Archives and Records Administration
                                     OIG Audit Report No. 10-19




                   Page 15
National Archives and Records Administration
                                                     OIG Audit Report No. 10-19


Appendix B – Acronyms and Abbreviations

FMFIA           Federal Managers’ Financial Integrity Act
GAO             Government Accountability Office
NARA            National Archives and Records Administration
NPOL            Policy and Planning Staff
OIG             Office of Inspector General
OMB             Office of Management and Budget
PAR             Performance and Accountability Report
The Circular    Circular A-123, Management’s Responsibility for Internal Control
The Standards   Standards for Internal Control in the Federal Government




                                   Page 16
                National Archives and Records Administration
                                                 OIG Audit Report No. 10-19


Appendix C – Management’s Response to the Report




                               Page 17
            National Archives and Records Administration
                                                           OIG Audit Report No. 10-19


Appendix D – Report Distribution List

Archivist of the United States
Deputy Archivist of the United States
Assistant Archivist, Office of Administration Services (NA)
Assistant Archivist, Office of Regional Records Services (NR)
Director, Policy and Planning (NPOL)
Chief of Staff
Management Control Liaison, Policy and Planning (NPOL)




                                       Page 18
                    National Archives and Records Administration
